<html>
<title> - POWERING EXPLORATION: AN UPDATE ON RADIOISOTOPE PRODUCTION AND LESSONS LEARNED FROM CASSINI</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         POWERING EXPLORATION:
                  AN UPDATE ON RADIOISOTOPE PRODUCTION
                    AND LESSONS LEARNED FROM CASSINI

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2017

                               __________

                           Serial No. 115-30

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 

       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-177 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas


                            C O N T E N T S

                            October 4, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

                               Witnesses:

Mr. David Schurr, Deputy Director, Planetary Science Division, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    12
    Written Statement............................................    14

Ms. Tracey Bishop, Deputy Assistant Secretary for Nuclear 
  Infrastructure Programs, Office of Nuclear Energy, Department 
  of Energy
    Oral Statement...............................................    18
    Written Statement............................................    20

Dr. Ralph L. McNutt, Jr., Chief Scientist for Space Science in 
  the Space Exploration Sector, The Johns Hopkins University 
  Applied Physics Laboratory
    Oral Statement...............................................    25
    Written Statement............................................    27

Ms. Shelby Oakley, Director, Acquisition and Sourcing Management, 
  Government Accountability Office
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion.......................................................    55

             Appendix I: Answers to Post-Hearing Questions

Mr. David Schurr, Deputy Director, Planetary Science Division, 
  National Aeronautics and Space Administration..................    70

Ms. Tracey Bishop, Deputy Assistant Secretary for Nuclear 
  Infrastructure Programs, Office of Nuclear Energy, Department 
  of Energy......................................................    73

Dr. Ralph L. McNutt, Jr., Chief Scientist for Space Science in 
  the Space Exploration Sector, The Johns Hopkins University 
  Applied Physics Laboratory.....................................    76


                         POWERING EXPLORATION:



                  AN UPDATE ON RADIOISOTOPE PRODUCTION



                    AND LESSONS LEARNED FROM CASSINI

                              ----------                              


                       Wednesday, October 4, 2017

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. The Subcommittee on Space will now come to 
order. Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time. Welcome to today's 
hearing titled ``Powering Exploration: An Update on 
Radioisotope Production and Lessons Learned from Cassini.'' I 
now recognize myself for an opening statement.
    Exploration of our solar system continues to amaze and 
inspire us all. From rovers on the surface of our neighbor, 
Mars, to spacecraft visiting the distant reaches of Pluto, and 
the recent completion of the extraordinary Cassini mission to 
Saturn, their discoveries are truly awe-inspiring. The 
exploration and science achieved by these missions is enabled 
by the production of Plutonium-238, or Pu-238, and the 
radioisotope power systems, or RPS, that turn fuel into 
electricity for spacecraft. RPS are necessary for missions that 
go beyond Jupiter where the sun's energy is simply not strong 
enough to power solar arrays and for rovers that have unique 
mission requirements.
    Unfortunately, America's stockpile of Pu-238 is low, 
despite efforts to reestablish production. This hearing allows 
us to review NASA and DOE's efforts to reconstitute Pu-238 
production and better understand how critical it is to enabling 
scientific discovery and exploration. The Cassini mission was 
enabled by Pu-238 and its RPS system.
    Over the last 50 years, NASA has relied on RPS to power 
many of its missions into deep space. This was made possible by 
a ready supply of Pu-238 that was derived from weapons 
production. After the U.S. ended the production of nuclear 
weapons in the 1980s, Pu-238 was less plentiful. And so America 
has had to purchase Pu-238 from Russia. We no longer purchase 
Pu-238 from Russia and now find ourselves in a quandary. The 
existing stockpile of Pu-238 is all but gone. The 
infrastructure necessary to produce Pu-238 is being 
reconstituted, but, as GAO will highlight, challenges remain.
    NASA funds the entire enterprise, but DOE owns and operates 
the facilities. Not all of the reactors involved in the 
production are currently active. Future missions to the outer 
planets will undoubtedly require Pu-238. Current assessments of 
the volume of Pu-238 that DOE can produce each year and NASA's 
assessment of its needs for future missions remain uncertain.
    For instance, when NASA assumes how much Pu-238 it needs, 
does it assume the fuel will be used in legacy multi-mission 
radioisotope thermoelectric generators, or MMRTGs, or in future 
advanced sterling radioisotope generators, ASRGs? ASRGs are 
much more efficient and use less Pu-238, but the program was 
cancelled a few years ago. Are NASA's estimated needs based on 
systems that are no longer being developed?
    NASA is also exploring plans to blend fuel to stretch its 
supply. Does this impact the quality of the supply and the 
missions that it can support? Since NASA is wholly dependent on 
DOE for isotope production, how will DOE's future management of 
its laboratories and reactors impact NASA missions? Is NASA 
planning missions based on low production rates or are DOE's 
production rates determined by a lack of requirements from 
NASA?
    The recent completion of the Cassini mission offers us an 
opportunity to reflect on the amazing science and discoveries 
that were enabled by Pu-238. Stunning images and findings still 
stream in from the Curiosity rover on Mars, which is also 
enabled by Pu-238. NASA currently has roughly 35 kilograms of 
fuel left. NASA and DOE plan to produce 1.5 kilograms a year by 
2025. A single MMRTG uses 4.8 kilograms of fuel. To put that 
into perspective, Cassini used 33 kilograms in one mission.
    I look forward to your insightful testimony about the 
future of exploration and how we can ensure that we continue to 
push the envelope of discovery. Thank you to our witnesses and 
their staff. You were able to accommodate a compressed schedule 
to appear today. Your service to the Committee and the nation 
is greatly appreciated.
    [The prepared statement of Chairman Babin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Chairman Babin. And now I'd like to recognize the Ranking 
Member, the gentleman from California, Mr. Bera, for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for 
calling this hearing. Good morning and welcome to the 
distinguished panel.
    You know, part of the reason why I like these hearings is, 
you know, I'm a simple doctor, a physician, and I get to 
interact and listen to the scientists. I would not have thought 
I would be talking about Plutonium-238.
    But in truth, this is an exciting time for space. It's an 
exciting time for space exploration. Just thinking about how 
we're going further and further into space, you know, the 
dramatic discoveries of Cassini, looking at the Moon and 
Enceladus and you know, perhaps harboring the ingredients of 
life. And the more we want to go further and further--we're 
starting to recapture the imagination of the public with these 
discoveries.
    But that then comes in, as we go further, what are our 
energy sources going to be in terms of communicating with us? 
And I think that's why this is such an important hearing. When 
Cassini was operated, the radio power systems were operated by 
Plutonium-238 and we stopped producing that a while ago. I 
think the Chairman's highlighted the challenges there and the 
big questions that we have that we look forward to hearing from 
all of you about.
    A couple questions that I have is, is the DOE on track to 
produce NASA's supply requirements of Pu-238 in the anticipated 
timeframe? A second question that I would hope that you are 
able to address is what impact would Pu-238 shortfalls have on 
NASA's Planetary Science plans and future portfolio? A third 
question would be are there mitigating actions available to 
address the constraints of the Pu-238 supply? And a fourth 
question that I would hope that you're able to address is have 
NASA and the science community already been making science-
limiting decisions based on the Pu-238 supply constraints?
    So Mr. Chairman, with that, I look forward to hearing what 
the witnesses have to say and I yield back.
    [The prepared statement of Mr. Bera follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Chairman Babin. Absolutely. Thank you. Good statement. And 
I'm a simple dentist. You're a simple physician, right. Okay. 
And let's see, I'd like to recognize the Ranking Member of the 
Full Committee for a statement, the gentlewoman from Texas, Ms. 
Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing. I look forward to hearing the 
witnesses.
    We hope that this hearing will assess the state of the 
supply of the radioisotope power that NASA relies on to carry 
out science missions in the outer regions of the solar system 
and on the surface of Mars.
    Today is the 60th anniversary of Sputnik launch that 
ignited the space race with the former Soviet Union. In the 
intervening decades, federal investment in NASA's Planetary 
Science program has enabled NASA to send spacecraft to the 
farthest reaches of our solar system and beyond. Thanks to 
Curiosity, which landed on Mars in 2012, we know that ancient 
Mars could have had chemistry necessary to support life. 
Curiosity also has detected methane in the Martian atmosphere, 
a possible sign of microbic activity, and evidence for ancient 
water flows.
    The recently completed Cassini mission spent more than a 
decade observing storms in Saturn's cloud tops, probing the 
planet's hidden interior, observing Saturn's rings with 
unprecedented detail, and flying through the geysers of 
Saturn's moon, Enceladus. The New Horizons mission became the 
first mission to perform a fly-by of Pluto and subsequently 
discovered that Pluto is still geologically active, has an 
extensive blue atmosphere, and is home to the largest known 
glacier in the solar system.
    What do all of these missions have in common? All of these 
missions and the groundbreaking science they enable are driven 
by radioisotope power. NASA is developing future missions that 
require radioisotope power as well, including the Mars 2020 
rover that is currently in development. In 2009 and '11 
National Academies reports sounded alarm about the supply of 
material needed for radioisotope power and underscored the need 
for immediate action to restart domestic production of Pu-238 
and the non-weapons grade isotope that makes radioisotope power 
systems work.
    Mr. Chairman, it is vital that NASA is equipped with the 
power resources that it needs to continue to lead in the 
scientific exploration of the solar system. NASA's partnership 
with the Department of Energy has been and will continue to be 
essential in enabling the use of radioisotope power systems. I 
look forward to a fruitful discussion on what NASA and DOE are 
doing to cost-effectively ensure a sufficient supply of 
materials needed for radioisotope power systems to meet NASA's 
needs in the future.
    I thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Babin. Now I'd like to introduce our witnesses. 
Mr. David Schurr--is it Schurr or Schurr?
    Mr. Schurr. Schurr.
    Chairman Babin. Schurr? Our first witness today is Mr. 
David Schurr, Deputy Director of the Planetary Science Division 
in NASA. He received a bachelor of science degree in aerospace 
engineering from the University of Notre Dame and a master's of 
science degree in process control from the University of 
Houston. He also received a master's of business administration 
degree from the University of Houston. Thank you. Good to have 
you today.
    Ms. Tracey Bishop, our second witness today, Deputy 
Assistant Secretary for Nuclear Infrastructure Programs at the 
Office of Nuclear Energy at the Department of Energy. She holds 
a bachelor's of nuclear engineering degree from the Georgia 
Institute of Technology and a master's of business 
administration degree from the University of Maryland. Welcome.
    Dr. Ralph L. McNutt, Jr., our third witness today. He's 
Chief Scientist for Space Science in the Space Exploration 
Sector at the Johns Hopkins University Applied Physics 
Laboratory. He received his bachelor of science and physics at 
Texas A & M University and his Ph.D. in physics at MIT. Welcome 
to today's hearing.
    And Ms. Shelby Oakley, our fourth witness today, Director 
of Acquisition and Sourcing Management at the GAO, Government 
Accountability Office. She earned her bachelor of arts degree 
in both psychology and sociology from Washington and Jefferson 
College as well as a master's degree in Public Administration 
from the University of Pittsburgh's Graduate School of Public 
and International Affairs. And we welcome you as well.
    I'd like to now recognize Mr. Schurr for five minutes to 
present his testimony.

                 TESTIMONY OF MR. DAVID SCHURR,

                        DEPUTY DIRECTOR,

                  PLANETARY SCIENCE DIVISION,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Schurr. Chairman Babin, Ranking Member Bera, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss how NASA's Radioisotope Power Systems (RPS) Program 
enables our planetary exploration portfolio.
    My office pursues NASA's goal to ascertain the content, 
origin, and evolution of the solar system and the potential for 
life elsewhere. For many destinations in the solar system, 
solar power is not effective for powering our spacecraft, and 
we rely on the use of radioisotope power.
    NASA, in partnership with the Department of Energy, has 
deployed radioisotope power on 22 of our space missions since 
1969. Use of radioisotope power has enabled many first-time 
missions, including the first visits to Jupiter and Saturn with 
Pioneer 10 and 11; the first landings on Mars with Viking 1 and 
2; the first visits to Uranus and Neptune during the Grand 
Tours of Voyager 1 and 2; the first rovers on Mars with 
Pathfinder, Spirit, Opportunity, and Curiosity; the first 
mission to orbit Jupiter with Galileo; the first mission to 
orbit Saturn with the just-completed Cassini; and the first 
visit to Pluto with New Horizons.
    These missions would not have been possible without using 
the heat generated by the natural radioactive decay of 
Plutonium-238 to generate electrical power. To ensure that NASA 
is capable of conducting these missions, NASA and DOE work 
together to sustain and improve the technology to convert heat 
into electrical power, and the processes for producing 
Plutonium-238 and preparing it for flight.
    NASA funds the implementation of the DOE-led Plutonium-238 
production and the associated infrastructure needed to fuel and 
test radioisotope power systems to fulfill NASA mission 
requirements. Progress in re-establishing a Plutonium-238 
production capability has been good, with initial batches 
already produced and shipped to Los Alamos National Laboratory, 
for mixing with existing inventory and pressing into fuel clads 
for NASA's upcoming Mars 2020 mission.
    NASA's mission requirements for Plutonium-238 are driven by 
the mission priorities established in the Planetary Science 
Decadal Survey, as well as other potential NASA missions. At 
this time, the Mars 2020 mission represents the only firm NASA 
requirement for radioisotope power needing one multi-mission 
radioisotope thermal generator requiring 4.8 kilograms of 
plutonium dioxide.
    NASA has also offered mission proposers the option to use 
radioisotope power for the current New Frontiers 4 Competition 
for possible launch in 2025 and has forecast the potential to 
offer radioisotope power for New Frontiers 5 or to a potential 
flagship mission launching around 2030.
    With the current allocation to civil space of approximately 
35 kilograms of plutonium and with new production ramping up to 
1.5 kilograms of plutonium dioxide per year, DOE will have 
sufficient material for fabrication into heat sources for 
expected Planetary Science missions through 2030. In addition, 
NASA and DOE have been begun exploring options to increase 
production rates above if needed to support any increased 
future demand.
    NASA also conducts basic and applied energy conversion 
research to advance state-of-the-art performance in heat-to-
electrical-energy conversion. Both static and dynamic energy 
conversion projects are underway. All missions to date have 
used a static conversion system based upon thermocouples. 
Dynamic conversion can achieve higher efficiency, but the 
moving parts introduce challenges that must be addressed before 
committing to flight development. The goal of these investments 
is to provide higher conversion efficiency and improve 
performance for future missions. Increased efficiency would 
benefit the program by enabling more capable missions or 
extending the effective use of the Plutonium-238 supply.
    With the 2016 New Horizons flyby of Pluto, humankind has 
completed its initial survey of our solar system. Through the 
use of radioisotope power, the U.S. remains the first and only 
nation to reach every major body from Mercury to Pluto with a 
space probe. With your continued support, we will use these 
capabilities to continue to explore the solar system through 
more capable orbiters, landers, and sample return missions in 
the years to come.
    I look forward to responding to any questions you may have.
    [The prepared statement of Mr. Schurr follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairman Babin. Thank you, Mr. Schurr. I appreciate that.
    I now recognize Ms. Bishop for five minutes to present her 
testimony.

                TESTIMONY OF MS. TRACEY BISHOP,

                   DEPUTY ASSISTANT SECRETARY

              FOR NUCLEAR INFRASTRUCTURE PROGRAMS,

         OFFICE OF NUCLEAR ENERGY, DEPARTMENT OF ENERGY

    Ms. Bishop. Chairman Babin, Ranking Member Bera, and 
Members of the Subcommittee, thank you for the opportunity 
today to discuss the Department of Energy's efforts to ensure 
radioisotope power systems are available for NASA use.
    The Department is committed to its partnership with NASA to 
provide radioisotope power systems for space exploration. This 
successful partnership has extended over 50 years and 22 
missions. Radioisotope power systems have a proven track record 
with no failures and long power lifetimes, making them a 
continued viable technology option for NASA missions.
    In October 2016, the Department and NASA renewed a 
memorandum of understanding to work together on future 
development and deployment of radioisotope power systems. This 
arrangement updated agency responsibilities to reflect funding 
authority changes and to provide more emphasis on aligning and 
integrating work to ensure and enable future space exploration 
missions.
    In the same month, the Office of Nuclear Energy realigned 
responsibilities to the Office of Nuclear Infrastructure 
Programs elevating interface with NASA to the Deputy Assistant 
Secretary level.
    Upon approval of the new memorandum of understanding, the 
agencies initiated discussions to assess current activities and 
to determine options to support for NASA mission goals. In 
early 2017, the Department and NASA agreed to transition 
delivery of radioisotope power systems from a mission-driven 
approach to constant-rate production strategy. Constant-rate 
production establishes clear deliverables, as defined by annual 
average production rates for Plutonium-238 and fueled clads 
allowing the Department to level-load work, ensuring that the 
capability is fully exercised, technical proficiency of the 
workforce is maintained, and opportunities to maintain and 
refurbish equipment in a systematic approach are available to 
support NASA mission requirements.
    Measurable progress has been made to realign activities to 
directly address identified risks to achieving plutonium 
production rates. The Department completed its first campaign 
of new, domestic Plutonium-238 in 2015, and the new material 
met NASA mission specification requirements. The Department and 
NASA agreed to continue efforts to reconstitute the plutonium 
supply chain by utilizing this material as part of the Mars 
2020 mission. I am pleased to report that as of August 2017, 
the Department successfully fabricated two fueled clads 
utilizing new plutonium for the Mars 2020 mission. A second 
campaign of new plutonium is scheduled to complete this fall, 
taking into account lessons learned from the first campaign.
    The Department is actively working to address and mitigate 
risk to establishing domestic Plutonium-238 production. 
Additional funding was made available as part of the Fiscal 
Year 2017 Omnibus. The Department is utilizing those funds to 
further reduce risk and accelerate the schedule. For example, 
the Department is accelerating work to expand the capability to 
ship larger quantities of Plutonium-238 heat source oxide 
between its sites. The Department is also accelerating research 
and testing on production target design with a goal of 
recommending a standard target design for both the advanced 
test reactor at Idaho National Laboratory and the high flux 
isotope reactor at Oak Ridge National Laboratory by 2019.
    The Department has an existing inventory of Plutonium-238 
that is able to meet NASA's current demands through a notional 
mission in 2025 plus additional plutonium that is currently out 
of specification.
    The Department recognizes there is a need to develop long-
range projections of plutonium to support space exploration 
planning activities beyond 2025 and is initiating several 
activities to begin this work.
    The Department accelerated an experimental campaign to 
verify an approach for irradiation in underutilized positions 
in the advanced test reactor that would yield sufficient 
quantities of very high assay plutonium which can be blended 
with the existing larger quantities of out-of-specification 
inventory to support overall heat source production rates while 
minimizing impact to existing irradiation customers.
    The Department is also assessing options to support 
redesign of the high flux isotope reactor's beryllium reflector 
to optimize it for Plutonium-238 production with the potential 
to increase total yield and assay so that it could also be 
blended with larger amounts of out-of- specification plutonium.
    The Department remains committed to partnering with NASA to 
ensure continued availability of radioisotope power systems for 
space exploration missions. Thank you for the opportunity to 
share the Department's progress, and I look forward to 
addressing any questions you may have in this area.
    [The prepared statement of Ms. Bishop follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Babin. Thank you, Ms. Bishop. I now recognize Dr. 
McNutt for five minutes to present his testimony.

             TESTIMONY OF DR. RALPH L. MCNUTT, JR.,

               CHIEF SCIENTIST FOR SPACE SCIENCE

                IN THE SPACE EXPLORATION SECTOR,

    THE JOHNS HOPKINS UNIVERSITY APPLIED PHYSICS LABORATORY

    Dr. McNutt. Chairman Babin, Ranking Member Bera, and 
Members of the Subcommittee, thank you for providing this 
opportunity for me to discuss some of the things that we've 
been able to do with these radioisotope power supplies over the 
years and some of the challenges that have been going on in 
order to be able to actually make a lot of these discoveries. 
Of course, it's already been remarked that 60 years ago today 
Sputnik was launched. It was powered by a battery. It was not 
until the fourth mission, Vanguard I that was launched by the 
United States, that there were actually solar cells that were 
used.
    Solar cells were a problematic technology at the time. 
We've come an incredibly long way since then. But at the time 
there were issues about whether that they would actually be 
able to be useful. And so the development of radioisotope power 
supplies was begun early. The first use was on the Transit 4A 
satellite launched in 1961 as part of the Navy's communications 
system. And since then, the United States has poured a great 
deal of effort and money into maturing the radioisotope power 
system supplies that we've been using until today.
    And of course, things like the Pioneer 10 and 11 probes, 
the first ones beyond the asteroid belt, the Viking 1 and 2 
landers, the first landers on Mars, and now even the venerable 
Voyager 1 and Voyager 2 space probes, which have celebrated 
more than 40 years in space and are still broadcasting from 
beyond the edge of the solar system new data about our 
surroundings, none of these would have been available if it had 
not been for these power supplies.
    It's also been remarked about the Cassini mission, of 
course, and I think I've got a graphic and that is indeed is 
up.
    [Slide]
    Of course, trying to describe everything that's been done 
with Cassini over the last 13 years in orbit is something that 
would take considerably more than five minutes. But certainly, 
our discoveries at Titan, our discoveries about Saturn, its 
rings, the magnetosphere, how similar and different the 
magnetic fields of Saturn and the Earth are, as well as looking 
at Enceladus of course, and the plumes which have already been 
talked about, is perhaps places where there might actually be 
life are all things that would not have been possible without 
those power supplies on board the spacecraft. And if we'd go to 
the next slide, please?
    [Slide]
    Of course, also with New Horizons, on the left-hand side is 
the best Hubble image of Pluto, and in the middle is what we 
were able to get with New Horizons, after 9-1/2 years of 
flight. And the final image is actually looking back toward the 
sun with the New Horizons spacecraft.
    [Slide]
    And you can see the haze around the edge. This is a movie. 
This is actually put together from actual data that was 
gathered by the New Horizons spacecraft showing you what the 
glaciers look like made out of nitrogen ice, water mountains, 
very young features, all geologically active. This has also 
been already remarked about, basically an incredible world out 
at the edge of the solar system. And again, if it had not been 
for having these radioisotope power supplies, none of this 
would have been possible.
    Of course, one of the things that has also been noted is 
that at the time of the Academy report in 2009, it looked like 
we were into a going-out-of-business sale with being able to 
actually have plutonium supplies to be able to do these kinds 
of missions. The good news is that we were able to actually 
recover from that, as has already been noted by my other 
colleagues here at the table. We seem to have turned the corner 
on that.
    At the same time, this is a difficult business, and the 
converters that NASA has been investing in, DOE has been 
investing in, these have been technically hard problems. It's 
been elusive in trying to raise the types of efficiencies that 
one would like, and indeed the type of radioisotope power 
systems that are on board Cassini and on board New Horizons 
right now are technologies that right now we cannot 
reduplicate. We cannot rebuild those supplies.
    It's been a difficult, difficult time trying to come up 
with a sort of a power supply where that one supply will fit 
all. And that has particularly remained elusive. Of course, 
it's limited by the amount of funds that are out there, but 
nonetheless, there are other steps that perhaps could be taken 
in order to enable us to keep moving forward. Certainly within 
the scientific community, a great deal of interest in the 
decadal surveys with future missions that cannot be done any 
other way, and I look forward to being able to answer any 
questions that you might have about some of those missions or 
any of the other aspects of these supplies and what they've 
been able to do for us. Thank you.
    [The prepared statement of Dr. McNutt follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairman Babin. Thank you, Dr. McNutt. I recognize Ms. 
Oakley for five minutes to present her testimony.

           TESTIMONY OF MS. SHELBY OAKLEY, DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Oakley. Good morning, Chairman Babin, Ranking Members 
Johnson and Bera, and Members of the Subcommittee. I am pleased 
to be here today as the simple analyst on the panel to discuss 
the current status of radioisotope production to enable future 
exploration.
    As you know, radioisotope power systems, or RPS, have 
enabled many of our most ambitious exploration missions such as 
Curiosity and of course, Cassini. DOE has been providing RPS to 
NASA for over five decades. However, our continued capability 
to produce RPS is dependent on a ready supply of Pu-238, the 
highly radioactive isotope used to power RPS.
    From the late '80s until recently we haven't produced any 
Pu-238 in the U.S., and our national stockpile that can be used 
in RPS is about 17.5 kilograms, about half of what was used in 
Cassini.
    With one mission expected to use RPS, Mars 2020, and one 
that may potentially use RPS, New Frontiers 4, the Pu-238 
stockpile could be exhausted as early as 2025.
    In 2011, NASA began funding DOE's efforts to develop new 
Pu-238 through its Supply Project. Timeframes and costs for the 
Supply Project have shifted and increased since 2011, and it 
will be 2025 at the earliest until DOE expects it can reach its 
full production goal of 1.5 kilograms per year. Until it does, 
questions will remain about NASA's ability to plan for and 
execute scientific missions that rely on RPS as an enabling 
technology.
    With this information as a backdrop, today I will discuss 
our recent work looking at how NASA selects RPS-powered 
missions, what factors affect such demand, and the progress and 
challenges DOE faces in meeting NASA's demand. Regarding 
mission selection, NASA officials acknowledge that the 
availability of Pu-238 has been a limiting factor for selecting 
missions that require RPS, particularly prior to the 
establishment of the Supply Project in 2011. For example, NASA 
did not offer RPS up for New Frontiers #3. Based on DOE's 
progress, NASA has now indicated that it is currently not a 
limiting factor but one of several factors it considers in 
mission selection. These other factors include scientific 
priorities and objectives, costs and timeframes, and policy 
direction.
    NASA officials indicated they prioritize mission selection 
based on the decadal survey which represents the highest 
priorities of the scientific community and includes many 
missions that may require RPS.
    According to NASA, it can only do two to three RPS missions 
using RPS per decade. Traditionally, RPS have been used on what 
NASA refers to as flagship missions. Flagships typically cost 
$2 billion or more and as our previous work has shown 
frequently experience cost overruns and schedule delays. As a 
result, the projected rate of these kinds of missions, due to 
their high cost, has allowed the demand for RPS to be met, at 
least in the near term. For other less expensive missions, the 
cost and time it takes to produce RPS makes their use a little 
more challenging. Finally, it is important to note that 
consistent with National Space Policy, NASA uses RPS for 
missions when it enables or significantly enhances the mission 
or when alternative power sources would compromise mission 
objectives. Sometimes it's evident that RPS is the only option, 
but other times more work is needed to determine if there's an 
alternative source available, such as solar, as was the case 
with the Europa Clipper mission.
    Regarding supply, DOE is making progress toward producing 
new Plutonium-238. So far DOE has produced approximately 100 
grams of new Pu-238 and has initiated efforts to ensure it has 
sufficient equipment and facilities to meet NASA's demand. 
However, DOE faces challenges in hiring and training the 
necessary workforce, perfecting and scaling up chemical 
processing, and ensuring the availability of reactors. That 
must be addressed or its ability to meet NASA's needs could be 
jeopardized.
    Addressing these challenges will take careful planning and 
coordination. However, we've found that DOE and NASA could do 
more in this regard. For example, we found that DOE doesn't 
have a long-term plan in place that identifies interim steps 
and milestones to allow it to show progress in meeting 
production goals or how risks are being mitigated. We also 
found that DOE's prior approach to managing the work doesn't 
allow it to adequately communicate systematic risks to NASA and 
their potential on programmatic goals. Having such information 
would allow DOE and NASA to make adjustments to the program, if 
necessary, and better plan for future missions.
    We made recommendations to DOE aimed at better planning and 
communicating risk. DOE concurred and has identified actions 
it's taking.
    Chairman Babin, Ranking Member Bera, and members of the 
Subcommittee, this concludes my remarks. I'm happy to answer 
any questions that you have.
    [The prepared statement of Ms. Oakley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Babin. Thank you, Ms. Oakley. I thank the witness 
for your testimony and all of the witnesses. The Chair 
recognizes himself for five minutes, and I'm going to ask a 
question of Mr. Schurr. But I would like to--answer it as 
briefly as you possibly can but cogently, of course, and then I 
want to try to get in as much as I possibly can from some of 
the rest of you folks.
    Mr. Schurr, your testimony states that NASA has 
approximately 35 kilograms of plutonium dioxide. You also 
stated that NASA expects DOE to begin initial operations of Pu-
238 production in 2019 with a goal of producing 400 grams of 
plutonium dioxide annually and ramping up to 1.5 kilograms per 
year by 2025. Finally, you stated that this production rate 
would satisfy expected NASA Planetary Science mission 
requirements through 2030. Of the 35 kilograms of Pu-238 
allocated to NASA, how much of that is viable for use in an RPS 
system for spaceflight?
    Mr. Schurr. Currently about 17 kilograms of the 35 meets 
the specifications for our use for spaceflight. So what's 
valuable to us is as we start ramping up the initial production 
of the new plutonium which will be at a higher assay, a hotter 
material, we'll be able to blend that with the remaining 18 
kilograms or so that is not to specification.
    So in the short term, the missions that we've got with Mars 
2020 and a potential mission in 2025, we have all the materials 
that we need for a mission in the 2030 timeframe when we'll 
rely upon the new production to blend with the rest of the 
material that's in inventory that's not up to specification.
    Chairman Babin. Okay. Thank you. Does your assessment that 
planned production will meet NASA requirements assume the use 
of multi-mission radioisotope thermoelectric generator 
technology or advanced sterling radioisotope generators 
technology?
    Mr. Schurr. At the moment, we're assuming the MMRTG is the 
baseline since the ASRG does not exist and it's not in our 
inventory. But we are looking at alternatives and improvements 
to the basic MMRTG technology. But right now we assume that's 
our baseline.
    Chairman Babin. Okay. Thank you. How much Pu-238 does an 
MMRTG require versus an ASRG?
    Mr. Schurr. The MMRTG uses 4.8 kilograms of plutonium 
dioxide, and the ASRG is 1/4 as much for the same amount of 
power.
    Chairman Babin. Okay. Just wondering if we need more Pu-238 
than we're thinking. Does your assessment that planned 
production will meet NASA requirements also factor in the 
potential needs of the human exploration community?
    Mr. Schurr. At this point, we're not making any assumptions 
about needs for human exploration, Mars or elsewhere. If for 
human spaceflight we determine that there's a value for Pu-238 
in their activities, it would likely require an increase in 
production. And that's part of what we're working with DOE, 
what are our options to do a higher rate of production if 
needed.
    Chairman Babin. Okay. Thank you. And lastly, if some 
portion of NASA's existing stockpile of 35 kilograms of Pu-238 
is not currently flight worthy and NASA's assessed need for 
future missions is based on systems that are more efficient 
than we currently produce, does NASA only need 1-1/2 kilograms 
per year for Pu-238 from DOE to meet its existing demands or 
could it use more? And also, what are we losing by not 
employing RPS for human missions?
    Mr. Schurr. There's a lot in there. We certainly could do 
more missions at a higher rate, but the number of missions that 
we can go do in, you know, a decade for instance, is also 
constrained by how much budget we have for the missions of that 
scale as well as the other activities that we're doing in the 
Planetary Science.
    So what we've been trying to do is get a balance right 
between what we think is a reasonable forecast in making sure 
that we've got the capability and the plutonium available to 
meet that forecast.
    Chairman Babin. Okay. Thank you. Ms. Tracey, based on the 
National Nuclear Security Administration's Global Threat 
Reduction Initiative, DOE committed in 2012 to convert all 
research reactors to a low-enrichment fuel for non-
proliferation concerns. The high flux isotope reactor at Oak 
Ridge National Laboratories is approaching 60 years of age and 
uses highly enriched fuel. What is the certainty of continued 
use and availability of HIFR, H-I-F-R?
    Ms. Bishop. Thank you for the question. The mission for 
HIFR is continuing on within the Department. My organization, 
along with other elements in the Department, continue to work 
with the National Nuclear Security Administration regarding 
efforts to convert the research reactors from highly enriched 
uranium to low-enriched uranium fuel. At this time I do not 
have any indications regarding impact to future missions or the 
ability to impact NASA's goal to produce Plutonium-238.
    Chairman Babin. Okay. Thank you. I have a lot more, but my 
time has expired. So we will go to the gentleman from 
California, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. We currently have 35 
kilograms of Pu-238. Is that our current stockpile, Mr. Schurr?
    Mr. Schurr. That's correct.
    Mr. Bera. And there was a time where we were purchasing Pu-
238 from Russia, but Russia has now indicated they either don't 
have the supplies or is it that they don't want to sell us 
supplies, Mr. Schurr?
    Mr. Schurr. I have to admit, all those activities pre-dated 
me and have been closed down for a while.
    Mr. Bera. Okay.
    Mr. Schurr. I don't know if Tracey, if you've got anything 
to add to that.
    Ms. Bishop. Those discussions also pre-dated my 
involvement.
    Mr. Bera. Okay. So regardless, they may have supplies but 
they don't want to sell them to us or they no longer have 
supplies.
    Mr. Schurr. We currently have no negotiations or discussion 
going on with the Russians regarding Pu-238.
    Mr. Bera. And it's reasonable to assume that there are no 
other countries currently capable of producing Pu-238 that we 
know about?
    Mr. Schurr. That's correct.
    Mr. Bera. In thinking about what our needs are by 2025, 
we've got the 35 kilograms. What would you say our needs are 
between now and 2025, Mr. Schurr?
    Mr. Schurr. The most that we can envision that we would use 
between now and 2025 is about the 17 kilograms that's within 
specification. Through 2030, we could possibly use that full 
35, but we would have to bring the rest of it up within 
specification. And that's where the new production is required.
    Mr. Bera. Okay. And we would--I think the chairman asked 
questions if there are missions we'd consider without the RPS? 
But it wouldn't make sense I think if we're going to deeper 
space not to have that ability to collect and communicate.
    Mr. Schurr. That's correct. We have now demonstrated we can 
do missions as far away from the sun as Jupiter. The Juno 
mission is currently there, the Europa Clipper mission will be 
going there. I've seen proposals that can go as far as Saturn 
for fairly limited missions, but beyond that, solar power is 
not really going to be useful and we need an alternative 
source, such as RPS.
    Mr. Bera. Okay, and we'd certainly want to have some 
certainty that we're not, you know, sending a mission pretty 
far out and not certain whether solar power--
    Mr. Schurr. Correct. And we have high-priority missions 
that are out to Uranus and Neptune that are part of our decadal 
survey that we want to maintain the ability to service.
    Mr. Bera. Great. Is there any science going into other 
alternative fuel sources or is it Pu-238 that is the source 
that we have to be using? And is all the science on improving 
conversion, blending it, making it a bit more efficient?
    Mr. Schurr. There's been a lot of work historically looking 
at what are the best isotopes to use for power conversion. Pu-
238 tends to come up on top for many reasons as one of the 
best. And the infrastructure is in place today. So as far as 
isotopes go, we wouldn't really look at a different 
radioisotope. There's possibility that fission might be 
developed in the future, and we'll look at what missions a 
fission system could possibly support. But likely it's not 
everything we're trying to do with planetary exploration. We're 
also looking at what are the different power conversion 
technologies. How can we advance thermocouples to be more 
efficient than what we've got right now? We have a technology 
project underway today to improve thermocouple efficiency, and 
we're also continuing to explore dynamic power which is the 
basis for the ASRG to see if we can come up with a more 
efficient system there.
    Mr. Bera. Dr. McNutt, would you have some thoughts on this 
as well?
    Dr. McNutt. Well, I think that David put the case fairly 
well. Certainly the idea of being able to have a dynamic 
converter is something that we've been talking about for a 
long, long time. And the problem is these have always fallen 
short. There are technical reasons. There's a lot of concern 
about whether that if one had a dynamic power system, is that 
something that you really want to rely upon, having the moving 
parts? And there's a great deal of debate back and forth in the 
community about that.
    So as I mentioned, certainly the GPHS, RTGs, these are the 
ones that were used on Cassini, Galileo, Ulysses, New Horizons. 
Those were sort of the top-level power supplies we were able to 
put together which will work in a hard vacuum. They won't work 
on the surface of Mars for technical reasons. And again, 
they're the sort of thing that we've sort of backed away from, 
partially because we were looking for the one-size-fits-all 
kind of a unit.
    With respect to other isotopes, David is actually 
absolutely right. That sort of thing has been examined over and 
over and over again, a great deal in the 1950s, the 1960s 
especially, and for all sorts of technical reasons, Plutonium-
238 in the dioxide form is the only thing that really makes any 
sense.
    Mr. Bera. So if we're projecting into the future past 2025 
and further, we know more of the international community is 
getting involved and thinking about space exploration as we go 
into deeper and deeper space. It is my perspective that we will 
be doing that in partnership with the international community. 
You know, if we do more human space exploration, whether it's 
human exploration of Mars, et cetera, we'll also need reliable 
energy sources, et cetera. It's not easy to produce Pu-238 
obviously. We potentially become the only supplier of Pu-238 
with missions that are beyond what we're just thinking about 
within NASA and our own scope. And I'm not sure we want other 
countries producing Pu-238 or encouraging that. That wouldn't 
necessarily be a good thing.
    So one thing that I would urge us to also think about as 
we're ramping up production beyond 2025 is how do we meet the 
international community's needs potentially as well? Am I 
thinking about this correctly? Because again, I don't think we 
want other countries exploring Pu-238 production.
    Dr. McNutt. Well, certainly one of the things that's 
happened in the United States, if you look at inflation-
adjusted dollars, there's been about $6 billion that went into 
developing these supplies. And of course, we've already had 
that kind of an international partnership because the Ulysses 
spacecraft was actually built by the European Space Agency but 
we provided the GPHS-RTG that actually enabled that mission. 
And there have been other discussions with other space 
agencies, notably with--VESA, about trying to duplicate that or 
replicate that, having similar things go ahead in the future.
    But the bottom line is as David was saying is that once you 
get beyond Jupiter and especially with some of the things you'd 
still like to do with Jupiter, you just simply cannot do them 
without this. And the United States is the premier developer of 
the technology, the owner of the technology, the owner of all 
of the intellectual property. We're the ones that know how to 
do this. It's been a very hard-fought battle getting to that 
point, and it's something that I think most members of the 
Science Committee would hope that we don't lose.
    Mr. Bera. I would hope so as well. Thank you, sir.
    Chairman Babin. Yes, sir. The gentleman's time has expired. 
Now let's go to the gentleman for California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair. I'm going to go in a 
little bit different direction, probably to Mr. Schurr or Dr. 
McNutt. Are ASRGs, are they already assumed in deep space 
explanation, NASA is already taking them into effect or into 
account?
    Mr. Schurr. The ASRG project itself, the flight project was 
cancelled back in 2013. So right now we don't build it into any 
of our forecasts for future needs as a system that would be 
available to us. We're still investing in the technology to see 
if we can develop the technology from that. But we don't build 
it into any of our forecasts.
    Mr. Knight. Okay. So if we go down the road of going to 
Mars in the next 16 or 17 years as the bumper sticker says--if 
my good friend from Colorado would be here, Ed Purlmutter, he 
would have his bumper sticker out there. If we assume we're 
going to make it there in the next 16 years, a lot of these 
efforts have got to be or a lot of these problems have got to 
be fixed. One of them is the propulsion. Obviously the number 
one is the radiation, to make sure that our astronauts get 
there and they get back safely. That's always the number one 
mission.
    If we are going to get there a little faster to make sure 
that the radiation impact is lessened because of less travel 
time, is that going to be a part of a new propulsion system or 
is that going to be a propulsion system that might be nuclear 
powered?
    Mr. Schurr. I don't believe there's a relationship between 
the Stirling power conversion and the NTP, Nuclear Thermal 
Propulsion. So you see, the sterling gets involved when you 
want to convert the heat that comes out----
    Mr. Knight. Right.
    Mr. Schurr. --of the reactor into electricity.
    Mr. Knight. Right. Okay. But again, if I just follow that 
question or that line of thinking, we're going to need that 
kind of propulsion system to get us there quicker, is that 
correct?
    Mr. Schurr. I actually have to admit that's not my field of 
expertise. So in the Planetary Science, our focus is on the 
power conversion. And I know we have folks in our space 
technology organization that are working on NTP.
    Mr. Knight. Okay. And now I'm going to go back to what the 
Chairman said, about the 35 kilograms. If we have enough to 
make sure that we're going through 2025 or 2030 and the 
conversion of this 35 kilograms is proper, we have enough, 
wouldn't the ASRGs be a part of that at some point to make sure 
that we have the burn rate or the conversion rate or some other 
technology? It could be something else.
    Mr. Schurr. If we're able to develop a dynamic technology 
that is four times more efficient, we'd be able to stretch the 
supply to conduct four times more missions or larger missions. 
So it is something we are investing in to see if we can make it 
work.
    It is technology that would also be applicable to any 
human-based usage with a fission-based system, if one were 
developed. So the technology has multiple uses, any heat source 
conversion to electricity. So it is an area that we're going to 
continue to invest in. Whether it makes sense for planetary 
missions or not, we have to solve some of the issues that Dr. 
McNutt was referring to. A dynamic power system with moving 
parts that can't be maintained for 20 years, you have to make 
sure there's enough reliability in the system. But those are 
the things that we're investigating.
    Mr. Knight. Okay. Very good. I yield back the balance of my 
time.
    Chairman Babin. Okay. Nobody down there. The gentleman from 
Florida, Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman. Questions for 
each member of the panel. Are you aware of any destruction of 
the United States' supply of Pu-238 in the past?
    Mr. Schurr. I'm going to defer to my colleague from the 
Department of Energy.
    Ms. Bishop. Sir, I'm not aware of any destruction of Pu-
238.
    Mr. Posey. Anyone else hear any rumors of it at all? Okay. 
In 2004 we had Dr. Jim Green, Director of NASA's Planetary 
Science Division here, and he indicated there was absolutely no 
problem whatsoever with future supplies of Pu-238. And Mr. 
Schurr, you've kind of indicated the same thing, but the 
Inspector General leads me to believe there might be a problem 
with it. What's the deal here?
    Ms. Oakley. I think what we were trying to convey in our 
report was more that there was a limiting factor, the Pu-238 
was a limiting factor in the early part of this decade. That 
coupled with a lot of really significant overruns on Planetary 
Science missions I think limited even the number of missions 
that Planetary Science could undertake, let alone the ones that 
would need Pu-238.
    Right now based on the development of new Pu-238 blended 
with the old, the needs are met in the near term. Our report 
tries to convey the fact that if this new supply of Pu-238 
isn't established and the goals aren't met by DOE, then it 
could become a limiting factor again in the future.
    Mr. Posey. Well, I would think, and it's common sense, that 
if we know we're going to need more in the future, we would 
have some plan, some coordination between NASA and DOE to 
furnish a supply or produce a supply. And the information that 
I seem to be getting is there really is no firm coordination or 
agreements or efforts to do that at this point.
    Mr. Schurr. I think I'd say it a little bit differently. In 
2012 we kicked off with the Department of Energy a restart of 
the plutonium production project. So we've been investing since 
2012.
    Mr. Posey. Okay. Now, bring me up to date on that. Where's 
that progressed to? At what point are you in now?
    Mr. Schurr. We've now produced up to 200 grams?
    Ms. Bishop. We've produced 100 grams----
    Mr. Schurr. 100 grams.
    Ms. Bishop. --of new material. We have a second campaign 
underway that should end this fall that's going to produce 
approximately the same amount of material. And we are 
continuing our efforts to reestablish our infrastructure and 
our pipeline to produce the rates that NASA requires to support 
their mission activities.
    Mr. Posey. And does NASA's request take into consideration 
maybe a loss of a launch and might need to replace that?
    Mr. Schurr. Not specifically, but since the only firm 
mission that's on our books right now is the Mars 2020 mission, 
we clearly would have the ability to replace one MMRTGs' worth 
of fuel if we were asked to do so.
    Mr. Posey. Well, I've heard the 35 that we have now 
potentially being utilized by 2025, is that correct?
    Mr. Schurr. About half of that could be used by 2025. The 
other half needs the blending of the new material and would 
cover our needs through at least 2030.
    Mr. Posey. And beyond 2030?
    Mr. Schurr. We would need the new production that's coming 
on line which should be to full operational capability by 2025. 
And at that point, we're already starting the discussions about 
whether we want to raise the rates if we need it for future 
forecasts.
    Mr. Posey. Okay. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you. I'd like to call on 
the gentleman from Florida, Mr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman. Let me start 
if I may with Mr. Schurr and Ms. Bishop. How does NASA 
communicate their needs regarding the RPS for Pu-238? How do 
you communicate with each other, and do you feel like you've 
got enough lead time on that?
    Mr. Schurr. I mean, we have regular processes. We have a 
monthly management review where we sit down and look at all of 
the progress in their activities as well as talk about any 
changes in our activities. Then we have a formal process. It's 
part of the annual budget cycle where----
    Mr. Dunn. You feel like you're interconnecting well, both 
of you?
    Mr. Schurr. Yes, I would say so.
    Ms. Bishop. Yes, I would agree.
    Mr. Dunn. Okay. For Ms. Oakley, does DOE have an assessment 
of the total cost requirements to upgrade the facilities to 
undertake the Plutonium-238 production? And who pays for that?
    Ms. Oakley. Well, the bottom line is that NASA will bear 
the cost, most of the cost, to upgrade the facilities and 
prepare all of the----
    Mr. Dunn. That's not spread over any of the other users of 
238?
    Ms. Oakley. No.
    Mr. Dunn. Pu-238.
    Ms. Oakley. Not that I understand. No, and NASA is the 
primary user right now, and NASA is responsible for 
reestablishing the capability for the United States. So they've 
been providing the funding to DOE through the Supply Project 
since 2011.
    And so I think that if you want to talk about costs, this 
is one of the criticisms in our report that we had is that 
prior to recent changes that Ms. Bishop discussed, the Supply 
Project was being managed in a very segmented, short-term 
approach because of uncertainties about funding that would be 
available in any given year. So it was really difficult to 
project how much this was going to cost overall.
    So in the beginning we were being told it was about $85 to 
$125 million to reconstitute this effort. Now it's looking like 
it's going to take a little bit longer and be more upwards of 
about $235 million. That being said because of the way the 
project was being managed before, we don't know exactly if this 
is a realistic accounting of risks that are involved in 
reestablishing that project.
    Mr. Dunn. Do I misunderstand, does DOE--you're producing 
this Pu-238 also or 239 for weapons?
    Ms. Bishop. That's not my area of----
    Mr. Dunn. Not yours but DOE is the one doing it, right?
    Ms. Bishop. The Department of Energy is producing 
Plutonium-238 to support the mission requirements.
    Mr. Dunn. So are those two parts of DOE talking to each 
other? I mean, we're making the stuff, so maybe they can get 
some--NASA doesn't have to start all over?
    Ms. Bishop. No, we coordinate very closely with NASA 
regarding mission needs as well as their requirements for 
plutonium. Also with our arrangement with NASA, the Department 
employs full-cost recovery. So we go forth and look at the 
infrastructure that NASA needs. If it is shared infrastructure, 
for example at Los Alamos National Laboratory where the 
infrastructure is shared with other national security 
customers, there is a cost-sharing arrangement. So the----
    Mr. Dunn. Have you now reprocessed all of the Russian 
plutonium we got from the warheads at the end of the Cold War?
    Ms. Bishop. No. The Russian material is still part of the 
stockpile that we currently have available.
    Mr. Dunn. That 17.5 or 35 whatever----
    Ms. Bishop. The 35 kilograms, yes.
    Mr. Dunn. Okay. So that's the last of it?
    Ms. Bishop. Yes.
    Mr. Dunn. That's it? Okay. Just turn for a moment there. I 
think this is a Mr. Schurr question. Please compare the 
relative development levels. Which is ready first, the MMRTG, 
the ASRG, and the kilopower fission system? Which one can we 
expect to be on line first?
    Mr. Schurr. Well, the MMRTG is active today on the Mars 
Science Lab that's on Mars. So we started developing that one 
back around 2001 or so, and it's operational. We've got two 
more copies of that that were built at the same time. One of 
those will go on the Mars 2020 mission that will launch in 
2020. So that's the system that we have in hand. It's ready to 
go. We can build more copies of that, and DOE builds those for 
us. We are making technology investments in potential 
enhancement----
    Mr. Dunn. I understand you're stalling the ASRG, right?
    Mr. Schurr. The ASRG, we are just looking at the 
technology----
    Mr. Dunn. Okay.
    Mr. Schurr. --basic conversion technology itself right now.
    Mr. Dunn. How about the kilopower?
    Mr. Schurr. Kilopower is investigation that other parts of 
the agency are looking at for potential fission systems.
    Mr. Dunn. Purely investigational at this point?
    Mr. Schurr. It's still technology development.
    Mr. Dunn. So I'm going to try to squeeze one more question 
in here if I may, Mr. Chairman. So is there any chance that we 
can make this plutonium power available to commercial partners, 
the commercial sector? And is that legal, going for other 
missions----
    Mr. Schurr. We haven't spent any time working on that.
    Ms. Bishop. Yeah, I don't have information.
    Mr. Dunn. So that's a novel idea to you?
    Mr. Schurr. We certainly haven't had any asks for it.
    Mr. Dunn. Okay. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman Babin. Yes, sir. I now recognize the gentleman 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and we 
get a great education here. You know, this is a--I feel like 
I'm talking to the greatest experts in the world, and for us to 
have hired people like this individually would be just 
impossible. So thank you very much for your testimony.
    And with that said, I sort of look at myself as a student 
that hasn't done his lessons yet on this particular issue. So 
let me ask this. Solar power is one way of promoting and 
actually providing the energy that we need at least for closer 
in space exploration missions but solar power will not work 
further out in space, is that correct?
    Mr. Schurr. Correct. The further away you get from the sun, 
the less power you can get off the same solar panels. So if you 
go to Jupiter, it's only four percent of what you can get from 
Earth from the same solar panels.
    Mr. Rohrabacher. Okay. So we are going to--with anything 
that goes beyond Mars--this will not affect any calculations as 
far as for a Mars mission, is that correct?
    Mr. Schurr. Mostly correct. There are uses where the 
environment is--if you look at the rovers on Mars, they're not 
always in the sunlight because of the way the sun changes as 
Mars goes through its seasons. So on MSL and Mars 2020 actually 
having the RTG makes it operational year round as opposed to 
having to stop during the winter.
    Mr. Rohrabacher. How about on the far side of the Moon?
    Mr. Schurr. The far side of the Moon? One of the problems 
you have with the Moon is you get two weeks of darkness no 
matter what part of the moon you're going to be on. And these 
can enable missions, possibly rovers or landers, to survive 
that lunar night at well.
    Mr. Rohrabacher. Okay, so this does have some application 
other than just deep space?
    Mr. Schurr. That's correct. It's not just distance. It's 
also any place that may be dark or dusty and not have enough 
sunlight.
    Mr. Rohrabacher. Okay, and I understand Japan has a large, 
how do you say, storage? Not storage but they possess a large 
amount of plutonium left over from their reactors?
    Mr. Schurr. I'm not familiar with that at all.
    Mr. Rohrabacher. Okay. Is anyone familiar with that and the 
possibility that that could be used to produce the Plutonium-
238 that we need?
    Ms. Bishop. Congressman, I'm not aware of any inventory.
    Mr. Rohrabacher. All right. Now what about Russia? Is 
Russia--I understand they actually produced this at one point, 
is that right?
    Ms. Bishop. Yes, that's correct, and previously the United 
States purchased material from Russia. And that's what we have 
in our current inventory. But there's no plans at this point to 
purchase additional material.
    Mr. Rohrabacher. So is it possible that we could, if we 
could get our relations back together again as they were a few 
years ago, we might have--this could be some area of 
cooperation between Russia and the United States in providing 
this material and perhaps joint deep space projects?
    Dr. McNutt. Can I----
    Ms. Bishop. Yes.
    Dr. McNutt. So I was actually the co-chair of the 2009 
report, and we looked at the situation with Russia at the time. 
And apparently, from what we could tell, they pretty much had 
sold or were planning to sell to the United States everything 
that they had left. There were discussions that they brought up 
suggesting that if we wanted to fund a plant in Russia, that 
they would be interested in taking our money and producing 
plutonium for us. It was not going to be cheap, and at least at 
the time talking with the people that were at DOE, they did not 
think that that would be an appropriate thing to do, nor were 
really the funds there in place to do that.
    So there are--of course, the Chang'e 3 lander that the 
Chinese landed on the moon not too many years ago did have 
radioisotope power supplies on board. They're very small. From 
what one can tell from the open literature, those probably did 
come from the Russians, perhaps some leftovers of what they 
had. But as far as there's anything out there that is available 
in open literature, the majority of this material that's left 
in the world is in the United States, and it's that 35 
kilograms.
    Mr. Rohrabacher. And it has to be produced. This is 
something--you have leftover plutonium from nuclear power 
plants but that plutonium needs to be worked on and produced 
through another process.
    Dr. McNutt. So that's actually a different kind of 
plutonium. That's the same thing that one uses in weapons. It's 
Plutonium-239.
    Mr. Rohrabacher. Right.
    Dr. McNutt. The power supply is 238. That one difference 
makes all the difference in the world. It turns out that 
Plutonium-238 gives off power by actually decaying. Half of it 
goes away after about 87 years, and that's the reason that the 
Voyagers will be going off-line sometime in the mid-2020s 
because their nuclear batteries effectively are winding down.
    So you do indeed have to make it. You make it out of 
Neptunium-237----
    Mr. Rohrabacher. And that comes from where?
    Dr. McNutt. Well, the Neptunium-237 was left over from the 
United States weapons program. There's about 300 kilograms of 
the material that's left under storage at Idaho National 
Laboratories in Idaho, and the United States no longer has the 
capability of making that.
    Mr. Rohrabacher. Okay, but none of that comes directly from 
leftover material from nuclear power plants?
    Dr. McNutt. Not in the United States, sir, no.
    Mr. Rohrabacher. But over in perhaps in Russia----
    Dr. McNutt. There are some processes that one can use, but 
again, one has to do a lot of processing of material. And of 
course, we haven't been reprocessing material for the 
commercial world in the United States since the Ford 
Administration. It's been a security issue.
    Mr. Rohrabacher. I understand that, but we're looking at 
just reprocessing for this specific 238. That will come from 
plutonium that is not in any way related to what's left over 
from a nuclear power plant. Is that correct?
    Dr. McNutt. Right.
    Mr. Rohrabacher. Okay.
    Dr. McNutt. It is the----
    Mr. Rohrabacher. This is not reprocessed plutonium----
    Dr. McNutt. Right.
    Mr. Rohrabacher. --from a nuclear power plant?
    Dr. McNutt. No, it is not.
    Mr. Rohrabacher. And where does that plutonium come from 
that the 238 comes from? It's just processed.
    Dr. McNutt. So again, the Plutonium-238 is material that we 
actually made out of the neptunium that we've had as heritage 
material that's been left over from other programs in the 
United States. Again, once you make it, half of it goes away in 
about 87 years. And so that's one of the reasons that part of 
that 35 kilogram inventory is not currently up to specs because 
it's old enough that it has decayed away. And so that's the 
reason for needing to up-blend it with new material in order 
for it to be used in future missions.
    Mr. Rohrabacher. And for long term, any long-term strategy 
that would have us in deep space, this is an issue that we must 
deal with because some day we're just going to reach a brick 
wall and can't go any further. I hope by then perhaps we will 
have not just Russia but other international partners that 
could work with us on this so the total cost isn't the American 
taxpayer. But who knows? We'll see. But in the meantime, I'm 
pleased that you are alerting us to this long-term need that 
should be there on one of our considerations as we're looking 
through our budget. So thank you very much for your testimony 
today.
    Chairman Babin. Thank you, Mr. Rohrabacher. There was just 
a couple other issues that I wanted to address. Dr. McNutt, 
NASA indicates that a production rate of 1.5 kilograms per year 
is sufficient to meet its needs, and that is based on the use 
of MMRTGs. The 2009 National Academy of Science Report that you 
chaired included an attachment which was a letter from NASA to 
DOE expressing Pu-238 production needs, and it states the Mars 
Science Lab and the Outer Planet Flagship 1 are designed to use 
the multi-mission radioisotope thermoelectric generator 
technology. The rest of the missions assume the use of advanced 
sterling radioisotope generator technology, significantly 
reducing the quantity of Pu-238 required to meet the power 
requirement. Is there a more recent letter from NASA to DOE 
that might clear some of the seemingly incongruencies or 
whatever you'd want to call it here?
    Dr. McNutt. Right. So to the best of my knowledge, there's 
only been one letter that at least has been made public since 
then, and that was issued in 2010. I was on the Planetary 
Decadal Survey that came out in 2011. We had access to that. 
That was the letter that had reduced the need to the 1.5 
kilogram per year level. The reason for that reduction from the 
5 kilogram per year level that had been issued in the previous 
letter in 2008 by Administrator Griffin was because that 
included elements of the Constellation Program that required 
pressurized rovers for human excursions on the surface of the 
Moon. Once the Constellation was cancelled, that need went 
away. And that was reflected in the letter of 2010.
    To the best of my knowledge, there has been no series of 
letters that has been interchanged between NASA and the 
Department of Energy since then. And one of the items that we 
flagged in the 2009 report is that having a publically 
available assessment of need on a yearly basis or so was 
actually something that perhaps should be reinstated.
    Chairman Babin. One other thing. Now that SLS and Orion are 
back on line so to speak, is it a possibility that we might 
need more than 1.5?
    Dr. McNutt. Yes, there could be. So one of the exercises 
that we went through in the 2014/2015 timeframe was putting 
together of what's called the Nuclear Power Assessment Study. 
We had a variety of people from all of the DOE labs from a lot 
of the NASA centers as well trying to look, again look forward 
at what sort of needs there might be, look forward at what sort 
of a role fission might play, and also look forward at what 
sort of needs that there might be for human exploration 
missions. We had representatives from HEOMD, from NASA, on the 
panel that did the work. Their words to us as we were putting 
that report together was that there were no current 
requirements within human mission exploration for NASA and that 
there really wasn't any way of coming up with a number because 
those requirements did not exist and it's something that would 
be studied in the future.
    And so that's one of the reasons why that all of this 
discussion is really hinged on the 1.5 kilograms per year, and 
as Mr. Schurr said, a lot of this is also reflected in the 
actual cost of the individual missions. And it's sort of a 
delicate balance of how much money you have for the missions 
that would need the material, and then you don't want to 
overproduce this stuff because it does start decaying away once 
you've produced it.
    Chairman Babin. Right. Okay. Thank you very much.
    Dr. McNutt. Certainly.
    Chairman Babin. And then I'm taking a chair's privilege 
here. I want to ask another question of Ms. Bishop. How will 
projected production rates be affected when the advanced test 
reactor at the Idaho National Laboratory undergoes the year-
long scheduled maintenance shutdown beginning in 2020? And has 
the ATR been qualified for Supply Project work?
    Ms. Bishop. Thank you for the question.
    Chairman Babin. Okay.
    Ms. Bishop. Currently, our activities supporting the 
advanced test reactor, we are doing a lot of planning 
activities right now to ensure that we are ready to produce Pu-
238 in the reactor when we finish the core internal change-out 
activities in 2020. Currently we have completed a trade study 
with the advanced test reactor to identify optimum positions 
within the reactor and develop that initial plan for how we 
would go about producing the material with some additional 
funding that was provided in Fiscal Year 2017. We are 
accelerating an experimental campaign to verify those 
calculations regarding our projected output of material.
    Chairman Babin. Okay.
    Ms. Bishop. And with that, we're also focused on developing 
and finalizing a standard target design that we would utilize 
for both the advanced test reactor and the high flux isotope 
reactor by 2019 with the goal when ATR is completed its core 
internal change-out, we would be ready in 2021 to insert 
targets and start producing Plutonium-238.
    Chairman Babin. Great. Okay. Thank you very much. And I 
have a request of you, Mr. Schurr. Dr. McNutt's testimony 
states an assessment was made of the true cost impacts, and a 
final report was transmitted from NASA to the Office of 
Management and Budget in the fall of 2013. Would you please 
provide a copy of the report that Dr. McNutt referenced in his 
testimony, from NASA?
    Dr. McNutt. You were on the panel with me. It was the zero-
based review----
    Mr. Schurr. Okay.
    Dr. McNutt. --study.
    Mr. Schurr. We'll take that action.
    Chairman Babin. Okay. Great. Well, this concludes our 
Subcommittee hearing this morning. I want to thank every one of 
you witnesses and all the members, although I'm the only one 
left standing up here and those of you who came to listen. We 
really appreciate it. Very interesting. And I'd like to adjourn 
the meeting.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Mr. David Schurr

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Ms. Tracey Bishop

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
[

Responses by Dr. Ralph L. McNutt, Jr.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
